U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

December 30, 2019
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: James King v. Douglas Brownback, et al., No. 19-718
Dear Mr. Harris:
The conditional cross petition for a writ of certiorari in the above-captioned case was filed
on November 27, 2019, and placed on the docket on December 6, 2019. The government’s
response is due on January 6, 2020. We respectfully request, under Rule 30.4 of the Rules of this
Court, an extension of time to and including January 21, 2020, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for preparation of
the government’s response have been heavily engaged with the press of previously assigned
matters with proximate due dates.
Counsel for petitioner consents to this extension.
Sincerely,

Noel J. Francisco
Solicitor General
cc:

See Attached Service List

19-0718
KING, JAMES
DOUGLAS BROWNBACK, ET AL.

ANYA BIDWELL
INSTITUTE FOR JUSTICE
816 CONGRESS AVENUE
SUITE 960
AUSTIN, TX 78701
512-480-5936
ABIDWELL@IJ.ORG
PATRICK JAICOMO
INSTITUTE FOR JUSTICE
901 NORTH GLEBE ROAD
SUITE 900
ARLINGTON, VA 22203
703-682-9320
PJAICOMO@IJ.ORG
D. ANDREW PORTINGA
MILLER JOHNSON
45 OTTAWA AVENUE SW
SUITE 1100
GRAND RAPIDS, MI 49503
703-682-9320
PORTINGAA@MILLERJOHNSON.COM

